Executive Report


Return to the USDOJ/OIG Home Page


Office of Community Oriented Policing ServicesGrant to the Santa Barbara County Sheriff's Department, California
GR-90-00-021
June 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General (OIG), Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Santa Barbara County Sheriff's Department (SBSD), California.  The purpose of the grants is to enhance community policing.  The SBSD was awarded a total of $2,857,279 to hire 33 new deputy sheriffs and to redeploy the equivalent of 15.3 existing full-time deputy sheriffs from administrative duties to community policing. 

We reviewed the SBSD's compliance with eight essential grant conditions.  We found the grantee's budgeting practices, hiring, meeting the local match, retention, officer redeployment, and implementation of community policing to be acceptable.  We found deficiencies in the following areas and question $125,457, as identified below. 1

The SBSD was over reimbursed $125,457 (federal share) because it included unallowable costs for county allocated overhead and supplies in its reimbursement requests. 

	Several status reports were not accurate or timely.
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.